September 12, 2000
Audit Report No. 00-039


Audit of the Dallas Field Operations
Branch’s Subsidiary Inventory
Federal Deposit Insurance Corporation
1910 Pacific Avenue, Suite 600                                                                           Office of Audits
 Dallas, Texas 75201                                                                         Office of Inspector General



   DATE:                             September 12, 2000

   MEMORANDUM TO:                    A. J. Felton
                                     Deputy Director
                                     Dallas Field Operations Branch
                                     Division of Resolutions and Receiverships




   FROM                              Shirley C. Ward
                                     Regional Director

   SUBJECT:                          Audit of the Dallas Field Operations Branch's Subsidiary
                                     Inventory (Audit Report No. 00-039)


   This report presents the results of the Office of Inspector General's (OIG) audit of the Division of
   Resolutions and Receiverships' (DRR) Dallas Field Operations Branch's (FOB) subsidiary
   inventory.1 The audit addressed whether the Dallas FOB accounted for all subsidiaries owned by
   failed institutions in its geographic area of responsibility.

   We performed the audit as a follow-up to our report entitled Audit of the Northeast Service
   Center's Subsidiaries Inventory (Audit Report No. 00-003, dated March 13, 2000) in which we
   found that the Northeast Service Center did not have a complete inventory of its subsidiaries.
   Because the Dallas FOB received and began managing the Northeast Service Center's subsidiary
   workload as of May 25, 2000, we initiated this audit to determine whether similar problems
   existed in Dallas.

   An inventory system of record should include all items that it is designed to track. A complete
   inventory of subsidiaries helps ensure the proper management and disposition of each subsidiary.
   Management responsibilities include identifying the status of each subsidiary, performing asset
   searches to identify all assets owned by the subsidiary, upstreaming2 discovered subsidiary
   assets, and preparing annual and final tax returns.


   1
     The Resolution Trust Corporation (RTC) maintained its inventory of subsidiaries on the Subsidiary Information
   Management Network (SIMAN), which became the Federal Deposit Insurance Corporation’s (FDIC) system of
   record for subsidiaries when the FDIC and RTC merged. Before the merger, the FDIC did not maintain a separate
   system of record for subsidiaries.
   2
     Upstreaming is used to describe the posting of assets belonging to a dissolved subsidiary to the books of the
   subsidiary's parent failed financial institution receivership.

                                                           1
BACKGROUND

The Federal Deposit Insurance Corporation (FDIC) and the Resolution Trust Corporation (RTC)3
assumed control of the management and disposition of the assets of failed financial institutions.

In many cases, those failed financial institutions owned subsidiaries that provided diverse
business services such as mortgage lending and servicing, real estate development and sales,
insurance, credit cards, travel, and security sales and underwriting. The parent's financial
statements show the subsidiaries as investments. Because subsidiaries maintained separate
financial records, the subsidiaries’ assets do not appear on the parent institutions’ financial
records. Subsidiaries’ assets include not only assets owned directly by subsidiaries—such as real
estate, cash, stocks, bonds, and mortgages—but also ownership interests in partnerships and joint
ventures.

Subsidiaries were usually incorporated in states where they conducted business. The subsidiaries
were required to file annual reports showing business activity and to pay annual incorporation
fees as long as they existed as ongoing entities. Requirements for the dissolution of subsidiaries
varied from state to state. Typically, if a subsidiary did not file an annual report or pay required
fees, the cognizant state could involuntarily dissolve the subsidiary until reporting requirements
were met. When a subsidiary ceased business activity, it could file a formal request for
dissolution with the state where it was incorporated. Some states require subsidiaries to dispose
of all assets and liabilities and have “zero dollar” balance sheets before dissolution, while other
states do not have those requirements.

When the FDIC closed its service centers in Irvine, California; Atlanta, Georgia; and Chicago,
Illinois; the Dallas FOB assumed responsibility for managing the remaining assets, including
subsidiaries, from those offices. The subsidiaries are listed on the Subsidiary Information
Management Network (SIMAN), the FDIC's system of record for subsidiaries. The FDIC March
2000 SIMAN report for the Dallas FOB contains 3,580 subsidiaries.


OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the audit was to determine whether the Dallas FOB, Asset Management Branch,
Subsidiaries Unit had a complete inventory of subsidiaries belonging to failed financial
institution receiverships in its geographic area of responsibility. To accomplish the objective, we
interviewed officials from the FOB Subsidiary and Settlements Units, the Legal Division, and
the Division of Finance's (DOF) Dallas Field Finance Center. We reviewed DRR's Asset
Disposition Manual (as revised March 16, 1999) and all applicable memorandums. We
reviewed reports from the consolidations of the three FDIC service centers in Irvine, Atlanta, and
Chicago into the Dallas FOB. We did not review records of contractors that managed RTC
subsidiaries or records from RTC receiverships because SIMAN was RTC's system of record and
RTC officials had assured the FDIC that all subsidiaries were accounted for. Also, the audit of
3
 As provided in the RTC Completion Act of 1993, the RTC went out of existence on December 31, 1995 and the
FDIC took over its functions on January 1, 1996.

                                                      2
the Northeast Service Center's subsidiaries inventory revealed that the risk of subsidiaries not
being on SIMAN was greater for FDIC institutions.

We determined that DOF and the Legal Division maintained auxiliary subsidiary inventory
listings or databases to meet their own individual needs. In addition, the Dallas FOB provided us
listings of subsidiaries from each of the three service centers (Atlanta, Chicago, and Irvine) that
were closed and whose remaining work was folded into the Dallas FOB. We manually
compared each auxiliary subsidiary listing to SIMAN to determine whether all subsidiaries were
included in SIMAN. We obtained and reviewed Dallas FOB supporting documentation for the
entities we identified from these auxiliary listings as not being on SIMAN. We also used
corporate information files and various Internet databases to research the ownership of real estate
and the incorporation status of subsidiaries.

We obtained from the Dallas FOB the state incorporation status reports for the subsidiaries that
were not included in SIMAN. We confirmed this information by searching the LEXIS/NEXIS4
system. Other Dallas FOB data sources we used to substantiate the status of an entity included
SIMAN's Subsidiary Information Detail Report, the Credit Notation System, RTC's Purchase
Negotiation Inquiry, and FDIC's General Loan Inquiry.

We verified the disposition of the subsidiary and reviewed subsequent support information on a
sample basis by having an independent third party conduct a similar search that yielded the same
type of support documentation. Specifically, we had the FDIC Dallas Library Service perform
data searches using LEXIS/NEXIS, CDB Infotek, and the Texas Business Comprehensive
Report for information on the subsidiaries dissolved after April 1996 that we identified as not
being on SIMAN.

We interviewed Dallas FOB officials regarding evidence of their asset searches using
LEXIS/NEXIS, CDB Infotek, and Information America. To understand their asset search
process, we reviewed a recently closed case file and the specific support documentation
regarding asset searches. We also searched state databases available on the Internet to identify
any unclaimed assets belonging to subsidiaries that were not on SIMAN. Finally, we
interviewed FOB subsidiary and settlement officials regarding bank closing activities and the
initial identification of subsidiaries during that process.

In addition to comparing the DOF and Legal Division auxiliary listings to SIMAN, we also
attempted to identify subsidiaries that were not recorded on SIMAN by reviewing three different
types of records. We reviewed the FDIC's bound closing books5 for 29 FDIC receiverships.
These 29 receiverships included all 13 financial institutions closed from 1992 through 1995 that
had a subsidiary listed on SIMAN and all 16 FDIC institutions closed after December 1995
4
  LEXIS is a full text legal services database that includes federal and state statutory, regulatory, and case law
materials. NEXIS includes a large number of national and local business journals, wire services, and newspapers,
including extensive back files, NAARS (a tax accounting database), and public record databases. We did not verify
the information provided by LEXIS/NEXIS to state records.
5
  At the time of receivership, the DRR closing manager prepares a bound closing book, which is a list of assets held
by the failed financial institution. It includes, but is not limited to, all official legal papers which address the
Resolution, ProForma Statements, Purchase and Assumption Agreement, Initial Liability and Depositor register, and
Loan Inventory of all assets retained by FDIC.

                                                         3
whether or not they had a subsidiary listed on SIMAN. We also reviewed FDIC settlement
jackets6 for the eight receiverships that closed in 1999. Further, we reviewed all other pertinent
institution records stored off-site for two judgmentally selected FDIC institutions that closed
before 1997.

We did not evaluate the Dallas FOB system of internal controls over its subsidiaries inventory
because the OIG concluded that the audit objective could be met more efficiently by conducting
substantive tests rather than placing reliance on the internal control system. The OIG conducted
the audit from March 2000 to June 2000 in accordance with generally accepted government
auditing standards.


RESULTS OF AUDIT

The Dallas FOB does not have a complete inventory of all FDIC subsidiaries for its geographic
area of responsibility. Specifically, the OIG identified 38 subsidiaries that were dissolved prior
to 1997 but were not on SIMAN--the FDIC's system of record for subsidiaries. Dallas FOB
officials knew these subsidiaries were dissolved or nearing final dissolution. Accordingly,
Dallas FOB management decided not to record the subsidiaries in SIMAN. However, we believe
that a system of record should include all items that it is designed to track. A complete inventory
of subsidiaries is needed to ensure the proper management and disposition of each subsidiary.
For example, we searched state Internet databases and identified 27 unclaimed accounts for these
38 subsidiaries. Normally, state Internet databases did not specify dollar amounts for these
unclaimed accounts. However, in 20 instances we identified a value of approximately $9,400 in
total.


THE DALLAS FOB SUBSIDIARIES INVENTORY WAS NOT COMPLETE

We identified 38 subsidiaries dissolved prior to 1997 that were not recorded on the SIMAN. Of
the 38 subsidiaries, 32 were identified by reviewing auxiliary subsidiary database listings, 1 was
identified by reviewing institution bound closing books and 5 were identified by reviewing
detailed receivership records stored in an off-site warehouse. Initially, we compared the
auxiliary subsidiary databases used and maintained by DOF and the Legal Division as well as the
service center closing subsidiary listings with SIMAN to identify potential subsidiaries that
might not be recorded on SIMAN. This comparison identified 56 subsidiaries that were not
recorded on SIMAN. However, this number was reduced to 32 subsidiaries after the Dallas FOB
Subsidiary Unit provided documentation showing that 9 were either an asset or a receivership,
and 15 were recorded on SIMAN but listed under another receivership name or identification
number.

We determined that 21 of the 32 subsidiaries not recorded on SIMAN had been dissolved prior to
April 1996. According to Dallas FOB Subsidiary Unit managers, these 21 were not added to the
SIMAN because a DRR memorandum titled "Initial Loading of FDIC Entities into the
6
 Settlement jackets are the documented adjusted assets and liabilities for each balance sheet account of a failed
institution as of the date of closing.

                                                          4
Subsidiary Information Management Network (SIMAN)," dated April 9, 1996, stated that by
May 31, 1996:

       All general information for corporations, trusts, associations, joint ventures and
       partnerships should be loaded individually for all unresolved Subsidiary and JVP entities
       in this phase of the project. (emphasis added)

We determined that the remaining 11 (of 32) subsidiaries not included in SIMAN were in the
final dissolution process at the time of the RTC and FDIC merger in December 1995. According
to Dallas FOB subsidiary management, a decision was made not to add these to SIMAN because
for all practical purposes the subsidiaries were resolved.

To help us identify additional subsidiaries not recorded on SIMAN, we reviewed FDIC
receivership bound closing books and settlement jackets. By reviewing these documents we
identified one subsidiary that was not recorded in SIMAN. This subsidiary was dissolved June
30, 1994. (We note that all subsidiaries for the eight FDIC banks closed in 1999 had been
identified and recorded in SIMAN.) We also selected, on a judgmental basis, two of the
institutions, one of which was closed in 1992 and the other in 1996, and reviewed pertinent
records (bound closing books, settlement jackets, and institution files) stored at an off-site
warehouse. We identified five subsidiaries that were not listed in SIMAN. These subsidiaries
were resolved before April 1996.

When we searched state Internet databases for unclaimed accounts associated with the 38
subsidiaries that were not recorded in SIMAN, we identified 27 unclaimed accounts. Twenty of
the unclaimed accounts had an associated total dollar value of approximately $9,400. Moreover,
Dallas FOB managers have retrieved a database of all subsidiary entities that have been loaded
into the Liquidation Asset Management Information System (LAMIS). LAMIS was installed as
the FDIC's system of record during the mid-1980's for all assets in liquidation. The Dallas FOB
will provide a copy of the inventory to the DOF Bank Account Control Unit (BACU) personnel
to enable the BACU to conduct asset searches of unclaimed property that may be held by the
states.

In a May 30, 2000 meeting, Dallas FOB managers said that the Subsidiaries Unit would update
SIMAN to include the 11 subsidiaries that were resolved after the April 1996 memorandum was
issued. Dallas FOB managers also stated that they will follow the policy established by the April
1996 Memorandum and, thus, do not intend to include in SIMAN the 27 subsidiaries that were
resolved prior to that date.


CONCLUSION AND RECOMMENDATIONS

The Dallas FOB inventory of subsidiaries for its geographic area of responsibility was not
complete. We identified 38 subsidiaries, all dissolved prior to 1997 that were not recorded on
SIMAN. We determined that a total $9,400 of unclaimed accounts exist for six of those
subsidiaries. Although not material in value, these accounts indicate that other subsidiary
unclaimed assets may exist that should be recorded and managed.


                                                5
Without a complete inventory of subsidiaries, the Dallas FOB cannot ensure that it properly
manages and disposes of subsidiaries and their assets. We believe that a complete inventory of
subsidiaries is important because SIMAN has been designated as the system of record to control
all financial accounting activity related to FDIC owned subsidiaries or at least those unresolved
subsidiaries since April 1996. Because the property searches referred to earlier in this report
may locate assets related to these subsidiaries, it seems appropriate to use SIMAN to capture this
information. Accordingly, the OIG recommends that the Deputy Director, Dallas FOB, take the
following actions:

        (1)      Include the 38 subsidiaries identified during our audit in the SIMAN system.
                 Once loaded into SIMAN, an asset search should be conducted for each
                 subsidiary.

        (2)      Coordinate with DOF's Field Finance Center, Bank Account Control Unit,7 in
                 Dallas, Texas, to identify and recover unclaimed accounts being held by states'
                 unclaimed property management offices that belong to subsidiaries of FDIC
                 receiverships managed by the Dallas FOB.


CORPORATION COMMENTS AND OIG EVALUATION

On August 22, 2000, the Deputy Director, Field Operations Branch, DRR, provided a written
response to the draft report. The response is presented in appendix I of this report.

DRR partially agreed with OIG’s recommendation to include subsidiaries identified during the
audit on SIMAN. On August 2, 2000, DRR added 10 subsidiaries that had not been dissolved
prior to April 1996 to SIMAN. Additionally, DRR indicated that these subsidiaries were now
dissolved and asset searches had revealed no assets or liabilities. DRR believed that the
subsidiaries that had been dissolved before April 1996 did not need to be added to SIMAN
according to the guidelines contained in the FDIC’s April 9, 1996 memorandum entitled “Initial
Loading of FDIC Entities into SIMAN.”

DRR agreed with OIG’s recommendation to coordinate with DOF’s Bank Account Control Unit
(BACU) to identify and recover unclaimed accounts that belong to subsidiaries. Subsidiary
management has provided BACU a listing of subsidiaries, given them inquiry access to SIMAN,
and agreed to notify them each time that a subsidiary is prepared for dissolution. Subsidiary
management and BACU have also agreed to meet quarterly on an ongoing basis.

In a July 11, 2000 memorandum to the Audit Committee, the Director of the Office of Internal
Control Management reported to the Audit Committee on the status of corrective actions related
to OIG Audit Report No. A99-038, entitled Audit of Abandoned Assets Held by States’

7
 The OIG issued a report on September 3, 1999 entitled Audit of Abandoned Assets Held by States' Unclaimed
Property Agencies, audit report number A99-038. Corporation comments to this report identify the DOF Bank
Account Control Unit (BACU) as assuming the responsibility for research and recovery of abandoned and
unclaimed funds belonging to FDIC/RTC.

                                                       6
Unclaimed Property Agencies. In this report, the OIG identified 3,945 accounts totaling $3.3
million belonging to the FDIC or its receiverships that were being held by California’s and
Florida’s unclaimed property agencies. In the memorandum, the director provided an
observation that:

       BACU has developed a database of all FDIC, FSLIC and RTC receiverships and
       has developed a database of all subsidiaries that were active from 1995 through
       today. Another database was developed that contains subsidiaries dissolved
       prior to 1995; however, this database is not inclusive of all subsidiaries dissolved
       before 1995. As such with an incomplete subsidiary database, BACU may fail to
       identify accounts belonging to FDIC.

The memorandum further recommends that DRR provide BACU with a listing of subsidiaries
acquired from failed financial institutions that were dissolved between 1985 and 1995. The list
can be derived from data contained in the Liquidation Asset Management Information System
(LAMIS). Once BACU receives the list, they can update their own database.

We continue to believe that a system of record – which SIMAN has been designated – should
include all entries that it is designed to track. Notwithstanding, the Corporation's response to the
draft report provided the requisite elements of a management decision for both
recommendations. Therefore, no further response to this report is necessary. Appendix II
presents management's proposed action on our recommendations and shows that there is a
management decision for each recommendation in this report.




                                                 7
                                                                                                   APPENDIX I

                                        CORPORATION COMMENTS




Note: The attachments referenced in management’s response have not been included in this report.

                                                           8
    APPENDIX I




9
     APPENDIX I




10
                                                                                                                                APPENDIX II

                                           MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its
semiannual reports to the Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance,
several conditions are necessary. First, the response must describe for each recommendation

   !    the specific corrective actions already taken, if applicable;
   !    corrective actions to be taken together with the expected completion dates for their implementation; and
   !    documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons
for any disagreement. In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.
Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation
confirming completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions.
The information for management decisions is based on management’s written response to our report.

                                                                                               Documentation                       Management
 Rec.                                                                    Expected             That Will Confirm      Monetary      Decision: Yes
Number         Corrective Action: Taken or Planned/Status             Completion Date           Final Action         Benefits         or No
            Ten subsidiaries loaded on the Subsidiary                                        SIMAN detail reports
    1       Information Management Network (SIMAN) and                    Completed             and asset search        -0-             Yes
            asset searches performed.                                                            documentation
            Bank Account Control Unit (BACU) notified of                                     LAMIS download of
    2       unclaimed funds and given list of subsidiaries to             Completed            subsidiary entities      -0-             Yes
            search for additional unclaimed accounts.                                         provided to BACU




                                                                        11
